   March 31, 2003




Human Capital


DoD Compliance With the
Uniformed and Overseas
Citizens Absentee Voting Act
(D-2003-072)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CONUS                 Continental United States
FPCA                  Federal Post Card Application
FVAP                  Federal Voting Assistance Program
FWAB                  Federal Write-In Absentee Ballot
IG DoD                Inspector General of the Department of Defense
USD(P&R)              Under Secretary of Defense for Personnel and Readiness
UVAO                  Unit Voting Assistance Officer
          Office of the Inspector General of the Department of Defense
Report No. D-2003-072                                                        March 31, 2003
   (Project No. D2002LF-0151)

                   DoD Compliance With the Uniformed and
                    Overseas Citizens Absentee Voting Act

                                  Executive Summary

Who Should Read This Report and Why? This report should be read by DoD civilian
and military personnel who are responsible for the administration, oversight, and
implementation of the Uniformed and Overseas Citizens Absentee Voting Act (the Act)
and voting assistance programs in DoD.

This report discusses DoD and Service compliance with the Act and implementation of
regulations regarding the Federal Voting Assistance Program in DoD. It also provides
the assessments from the Inspectors General of each Service on the effectiveness and
compliance of their Services’ voting assistance programs.

Background. Section 1566, title 10, United States Code (added by Public Law 107-107,
“National Defense Authorization Act for Fiscal Year 2002,” December 28, 2001)
requires the Inspector General of the Department of Defense to annually assess each
Service’s compliance with the Act, DoD regulations regarding the Act and the Federal
Voting Assistance Program, and other requirements of law regarding voting by members
of the Armed Forces. Additionally, section 1566 requires the Inspectors General of each
Service to conduct annual effectiveness and compliance reviews of their voting
assistance programs.

The Office of the Under Secretary of Defense for Personnel and Readiness is responsible
for the policy oversight functions of the DoD voting assistance program. The Director of
Administration and Management, Office of the Secretary of Defense, carries out the
Federal Voting Assistance Program responsibilities for the Secretary of Defense. The
goals of the Federal Voting Assistance Program are to inform and educate absentee
voters of their right to vote, to foster voting participation, and to protect the integrity of
the voting process. As of September 2002, there were about 265,000 active duty
personnel and 185,000 of their dependents (age 18 and over) located overseas. There
were also about 1.1 million active duty personnel and 586,000 dependents in the
continental United States and its territories who were potential absentee voters. DoD
faces the same challenges as the entire United States in its attempt to increase voting
participation, particularly among the younger population of eligible voters. DoD
challenges are magnified because of the worldwide dispersion of active duty personnel.

Results. The Federal Voting Assistance Program Office developed guidance and
resources for effective and compliant DoD implementation of the Act; however, the
effectiveness of the Services’ programs varied at the locations visited. The Federal
Voting Assistance Program Office provided a variety of comprehensive and useful
resources for uniformed absentee voters and the Services’ voting assistance programs.
Additionally, the Federal Voting Assistance Program Office provided training and
guidance to a worldwide network of Service voting assistance officers and continues to
focus attention on issues related to the standardization and simplification of the absentee
ballot process. Because of the delayed issuance of DoD Directive 1000.4, “Federal
Voting Assistance Program,” June 3, 2002, the Services did not have time to implement
the Directive requirements before the November 2002 election. The Under Secretary of
Defense for Personnel and Readiness needs to continue to oversee the Services’ voting
assistance program guidance.

Although each Service had a plan for implementing the voting assistance program, the
effectiveness of the Services’ programs varied for the November 2002 election at the
10 locations we visited. In our opinion, the Service voting assistance programs were
partially effective at six locations and ineffective at four locations. Problems we
identified for the November 2000 election continued to exist for the November 2002
election, such as:

       •   Unit Voting Assistance Officers and uniformed absentee voters lack training,

       •   absentee voters were not aware of voting assistance resources and Unit Voting
           Assistance Officers, and

       •   the span of control of Unit Voting Assistance Officers was too large.

The continued existence of the problems indicates that improvements to Service voting
assistance programs are needed. The Services can improve their programs by including
all of the requirements in DoD Directive 1000.4 in their implementing guidance. The
Services should also increase command emphasis at all levels and improve oversight of
program implementation. See the Finding section of the report for the detailed
recommendations.

Management Comments and Evaluation Response. The Principal Deputy Under
Secretary of Defense for Personnel and Readiness concurred with the recommendations
and stated that his office and the Director of the Federal Voting Assistance Program will
oversee the Service voting assistance program guidance. The Army did not provide
comments on the draft report. The Navy, the Air Force, and the Marine Corps generally
concurred with the recommendation to revise their guidance to include the requirements
of DoD Directive 1000.4. However, the Navy did not agree to revise its guidance to
include the DoD Directive 1000.4 requirement to establish a maximum number of voters
that can be served by a Unit Voting Assistance Officer. Additionally, the Marine Corps
did not agree to revise its guidance to include the DoD Directive 1000.4 requirement for
in-hand delivery of the Federal Post Card Application.

The Navy agreed to provide command emphasis and program oversight of its voting
assistance program. The Air Force and the Marine Corps did not provide comments on
the command emphasis and program oversight recommendations. See the Finding
section for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.

The Principal Deputy Under Secretary comments were fully responsive and additional
comments are not required. We request that the Navy reconsider its position concerning
the maximum number of voters that can be served by a Unit Voting Assistance Officer.
We also request that the Marine Corps reconsider its position on the requirement for
in-hand delivery of the Federal Post Card Application. Finally, we request that the
Services provide comments on the final report recommendations by May 30, 2003, as
indicated in Table 7 (page 26).

                                             ii
Service Inspectors General Reports. The Army Inspector General reported that the
Army’s voting assistance program at all levels is lacking in command emphasis, detailed
staff planning, effective compliance with policy guidelines, and training. Execution of
the Army’s program is inconsistent and ineffectual (Appendix E). The Deputy Naval
Inspector General reported that the Navy voting assistance program is in substantial
compliance with DoD guidance. The program is performing well; however, there is
room for improvement (Appendix F). The Air Force Inspector General reported that
overall compliance with DoD Directive 1000.4, the Act, and Air Force regulations was
satisfactory (Appendix G). The Marine Corps Inspector General reported that the Marine
Corps has an effective voting assistance program and, with the exception of reported
discrepancies, complies with DoD Directive 1000.4 and the Act (Appendix H).




                                          iii
Table of Contents

Executive Summary                                                              i


Background                                                                    1


Objectives                                                                    5


Finding
     Compliance and Effectiveness of Absentee Voting Assistance Programs       6

Appendixes
     A. Scope and Methodology                                                 29
          Management Control Program Review                                   32
          Prior Coverage                                                      32
     B. Uniformed Absentee Voter Questionnaire                                34
     C. UVAO Absentee Ballot Questionnaire                                    37
     D. Commands, Installations, and Ship Visited                             39
     E. Department of the Army Inspector General Report                       40
     F. Department of the Navy Inspector General Report                       44
     G. Department of the Air Force Inspector General Report                  50
     H. Marine Corps Inspector General Report                                 54
     I. Eleven Questions Provided to the Inspectors General of the Services   60
     J. Report Distribution                                                   61

Management Comments
     Under Secretary of Defense for Personnel and Readiness                   63
     Department of the Navy                                                   64
     Department of the Air Force                                              66
     Marine Corps                                                             67
Background
    This evaluation was required by section 1566, title 10, United States Code (added
    by Public Law 107-107, “National Defense Authorization Act for Fiscal Year
    2002,” December 28, 2001). Section 1566, title 10, United States Code
    (10 U.S.C. 1566) states:
               (c) ANNUAL         EFFECTIVENESS          AND  COMPLIANCE
               REVIEWS.—(1) The Inspector General of each of the Army, Navy,
               Air Force, and Marine Corps shall conduct—

                   (A) an annual review of the effectiveness of voting assistance
                   programs; and
                   (B) an annual review of the compliance with voting assistance
                   programs of that armed force.

               (2) Upon the completion of each annual review under paragraph (1),
               each Inspector General specified in that paragraph shall submit to the
               Inspector General of the Department of Defense a report on the results
               of each such review. Such report shall be submitted in time each year
               to be reflected in the report of the Inspector General of the Department
               of Defense under paragraph (3).

               (3) Not later than March 31 each year, the Inspector General of the
               Department of Defense shall submit to Congress a report on—

                   (A) the effectiveness during the preceding calendar year of voting
                   assistance programs; and
                   (B) the level of compliance during the preceding calendar year
                   with voting assistance programs of each of the Army, Navy, Air
                   Force, and Marine Corps.

               (d) INSPECTOR GENERAL ASSESSMENTS.—(1) The Inspector
               General of the Department of Defense shall periodically conduct at
               Department of Defense installations unannounced assessments of the
               compliance at those installations with—

                   (A) the requirements of the Uniformed and Overseas Citizens
                   Absentee Voting Act (42 U.S.C. 1973ff et seq.);
                   (B) Department of Defense regulations regarding that Act and the
                   Federal Voting Assistance Program carried out under that Act;
                   and,
                   (C) other requirements of law regarding voting by members of the
                   armed forces.

               (2) The Inspector General shall conduct an assessment under
               paragraph (1) at not less than 10 Department of Defense installations
               each calendar year. . . .

    Inspector General of the Department of Defense Assessment. To assess the
    effectiveness of the DoD voting assistance program, representatives from the
    Inspector General of the Department of Defense (IG DoD) developed and

                                             1
administered questionnaires that focused on an individual’s awareness and
perceptions of the absentee ballot process and voting resources, the effectiveness
of Unit Voting Assistance Officers (UVAOs), and the adequacy of Federal Voting
Assistance Program (FVAP) Office training and materials. The questionnaires
were similar to those used during our 2001 evaluation of overseas absentee ballot
handling in DoD. The questionnaires are in Appendix B and Appendix C.

The questionnaires were administered to 942 uniformed absentee voters and
110 UVAOs at the 10 locations (including one ship) listed in Appendix D. After
completion of the survey questions, the respondents participated in group
discussions and were asked questions related to their experiences with
absentee voting.

As of September 2002, there were about 265,000 active duty personnel and about
185,000 dependents (age 18 and over) of active duty personnel located overseas.
There were also about 1.1 million active duty personnel and 586,000 dependents
(age 18 and over) in the continental United States (CONUS) and its territories
who were potential absentee voters.

Uniformed and Overseas Citizens Absentee Voting Act. The Act establishes
Federal, State, and territory requirements to allow certain groups of citizens to
register and vote absentee in elections for Federal offices. Absentee voters are
absent from the place of legal residence where they are otherwise qualified to
vote. U.S. citizens covered by the Act are “absent uniformed services voters” and
“overseas voters.”

This report includes coverage of DoD uniformed absentee voters. We have used
the term “uniformed absentee voters” to include a member of the Army, the Navy,
the Air Force, or the Marine Corps on active duty who, by reason of such active
duty, is absent from the place of legal residence where the member is otherwise
qualified to vote. We have also included in that term the spouse and dependents
of those active duty members who, by reason of the active duty of the member,
are absent from the place of legal residence where they are otherwise qualified to
vote. The evaluation did not cover other Uniformed Service members, such as
merchant marines, who are also covered by the Act.
The Act requires States to permit uniformed absentee voters to use absentee
registration procedures and to vote by absentee ballot in Federal elections. The
Act also states that the President shall designate the head of an Executive
department to have primary responsibility for Federal functions of the Act.

On June 8, 1988, the President issued Executive Order 12642, “Designation of the
Secretary of Defense as the Presidential Designee.” Under the Executive Order,
the Secretary of Defense has primary responsibility for implementing the
requirements of the Act. Under the Act, FVAP Office responsibilities include
working with State and local election officials to implement the Act; prescribing
an official post card form to be used by absentee voters for registering to vote and
for requesting an absentee ballot; distributing material on State absentee voting
procedures; and after Presidential elections, reporting on the effectiveness of the
voting assistance effort. Many States and territories have enacted laws allowing



                                     2
    citizens covered by the Act to register and vote absentee in State and local
    elections.


DoD and Service Policies and Procedures
    Revised Federal Voting Assistance Program Guidance. On June 22, 2001, the
    IG DoD issued Report No. D-2001-145, “Overseas Absentee Ballot Handling in
    DoD.” The report covered areas needing improvement and states that DoD
    should ensure more effective oversight of its voting assistance program and
    improve the implementation and understanding of Service voting assistance
    programs at all levels. The report recommended specific revisions to DoD policy
    to help ensure that uniformed absentee voters are provided adequate voting
    assistance.

    The former Assistant Secretary of Defense (Force Management Policy), now the
    Principal Deputy Under Secretary of Defense for Personnel and Readiness, agreed
    to revise DoD Directive 1000.4, “Federal Voting Assistance Program (FVAP),”
    by September 30, 2001. Because the revision of DoD Directive 1000.4 was not
    issued until June 3, 2002, the Services did not have time to implement the new
    Directive before the November 2002 election.

    DoD Policies and Procedures. DoD Directive 1000.4, “Federal Voting
    Assistance Program (FVAP),” June 3, 2002, states that the Under Secretary of
    Defense for Personnel and Readiness (USD[P&R]) shall have policy oversight
    functions of the FVAP and that the Director, Washington Headquarters Services,
    under the Director of Administration and Management, shall manage, coordinate,
    and perform the responsibilities assigned to the Secretary of Defense as the
    Presidential designee. DoD Directive 1000.4 applies to the Office of the
    Secretary of Defense, the Military Departments (including the Coast Guard by
    agreement with the Department of Transportation), the Joint Staff, the combatant
    commands, the IG DoD, the Defense agencies, DoD field activities, and all other
    organizational entities within the Department of Defense. DoD Directive 1000.4
    also applies to the commissioned corps of the Public Health Service and the
    National Oceanic and Atmospheric Administration.

    In addition to DoD Directive 1000.4, Deputy Secretary of Defense memorandum,
    “Federal Voting Assistance Program—2002-2003,” March 26, 2002, announced
    the “DoD Voting Action Plan for 2002-2003” (DoD Voting Plan). The DoD
    Voting Plan addresses implementation of the Act and dissemination of
    information, guidance, and tasks related to the voting assistance program.
    Specifically, the DoD Voting Plan requires command support at all levels for the
    FVAP, the designation of UVAOs at all levels of command, the in-hand delivery
    of the Federal Post Card Applications (FPCAs), and for the Inspectors General of
    the Services to include the voting assistance program as an item for specific
    review at every organizational level. The DoD Voting Plan also requires the
    Services to develop comprehensive command-wide voting awareness and
    assistance programs and voting action plans for the 2002-2003 elections.

    Army Guidance. Army Regulation 608-20, “Voting by Personnel of the Armed
    Forces,” August 15, 1981, establishes policy, responsibilities, and procedures for

                                         3
Army implementation of the FVAP. The Regulation provides basic voting
information needed by Armed Forces personnel, civilians officially attached with
the Armed Forces overseas, and their dependents. Although the Army Regulation
had not been updated since 1981, an Army Adjutant General memorandum,
“Instructions for Conducting the 2002-2003 Army Voting Assistance Program,”
June 13, 2002, includes instructions for implementing the FVAP and for
maximizing opportunities to encourage every eligible voter to register and vote.
The memorandum establishes and assigns specific responsibilities to commanders
of major Army commands, installation commanders, and unit commanders down
to company and detachment levels. The Army Adjutant General memorandum is
the voting action plan required by the DoD Voting Plan.

Navy Guidance. The Chief of Naval Operations Instruction (OPNAVINST)
1742.1, “Navy Voting Assistance Program,” August 14, 2002, establishes policy
and assigns responsibilities for the Navy voting assistance program. The
Instruction states that the Navy voting assistance program shall be administered to
ensure that eligible voters receive information about registration procedures and
voter materials pertaining to scheduled elections. The Navy Instruction assigns
voter responsibilities to every level of command. In addition to the Instruction,
Bureau of Naval Personnel Notice 1742, “CY-2002 Navy Voting Assistance
Program,” March 25, 2002, announced the Navy voting assistance plan. The
goals of the plan are to provide eligible voters with information on the Navy
voting assistance program and to achieve 100 percent registration of eligible
Navy voters.

Air Force Guidance. Air Force Instruction 36-3107, “Voting Assistance
Program,” May 31, 1994, implements the Act and informs personnel about voting
opportunities, including absentee voting. The Air Force Instruction establishes
specific voting assistance responsibilities at various levels of command from the
major command down to the unit voting counselor. In addition to Air Force
Instruction 36-3107, the “Air Force Voting Plan 2002-03,” undated, was issued
with a goal of providing assistance for all elections, emphasizing the period prior
to the November 5, 2002, general election. The plan reiterates specific
responsibilities for Air Force headquarters, commanders of major commands and
installations, installation personnel directors, and voting assistance officers at
each level of command.
Marine Corps Guidance. Marine Corps Order 1742.1A, “Voter Registration
Program,” May 14, 2002, provides guidance and assigns responsibilities for the
implementation of the Marine Corps voter registration program to commanding
officers at all echelons to assist Marines, their family members, and certain others
in exercising their right to vote. Additionally, “United States Marine Corps
Voting Action Plan 2002-2003” implements the Federal functions of the Act,
disseminates information and guidance, and coordinates tasks related to the
absentee voter registration program. The plan independently sets forth guidance
and does not reference Marine Corps Order 1742.1A.




                                     4
Objectives
     The primary objective of our evaluation was to assess the effectiveness of DoD
     voting assistance programs and their compliance with the Act. Specifically, we
     evaluated FVAP Office compliance with the Act and other requirements of law
     regarding voting by members of the Armed Forces. We also evaluated the
     Services’ compliance with DoD guidance for implementing the Act. In addition,
     we reviewed the adequacy of management controls as they applied to the
     evaluation objective. See Appendix A for a discussion of the evaluation scope
     and methodology, the review of the management control program, and prior
     coverage.


Limitations on Use of Report Data
     The results of the questionnaires discussed in this report are generally
     summarized by uniformed absentee voters and by UVAOs. In some sections, we
     also presented the results of the questionnaires by Service.

     The organizations we visited and the individual participants were not randomly
     selected; therefore, results cannot be statistically projected to the universe. The
     questionnaire results are descriptive and are not intended to be used for
     comparative purposes. Although the uniformed absentee voter and UVAO
     questionnaires used in this report are similar to the questionnaires used in our
     2001 evaluation, the numerical results from the questionnaires in 2001 should not
     be compared with the results in this report.

     The questionnaire and discussion group responses reflect the perceptions of
     uniformed absentee voters concerning the absentee ballot process. The accuracy
     of those perceptions cannot be validated.




                                          5
Compliance and Effectiveness of Absentee
Voting Assistance Programs
The FVAP Office developed guidance and resources for effective and
compliant DoD implementation of the Act. For the 2002 elections, the
FVAP Office maintained and provided a variety of comprehensive and
useful resources for uniformed absentee voters and the Services’ voting
assistance programs. Additionally, the FVAP Office provided training
and guidance to a worldwide network of Service voting assistance
officers. Further, the FVAP Office continues to focus on issues relating to
standardization and simplification of the absentee ballot process,
providing feedback to voters, and the increasing use of technology.
Because of the delayed issuance of DoD Directive 1000.4, the Services
did not have time to implement the Directive requirements before the
November 2002 election. The USD(P&R) needs to continue to oversee
the Services’ voting assistance program guidance.

Although each Service had a plan for the implementation of its voting
assistance program, the effectiveness of the Services’ voting assistance
programs varied for the November 2002 election at the 10 locations we
visited. In our opinion, the Service voting assistance programs were
partially effective at six locations and ineffective at four locations.
Problems we identified for the November 2000 election continued to exist
for the November 2002 election, such as:

       •   Unit Voting Assistance Officers and uniformed absentee voters
           lack training,

       •   absentee voters were not aware of voting assistance resources
           and Unit Voting Assistance Officers, and

       •   the span of control of Unit Voting Assistance Officers was too
           large.
The occurrence of problems similar to those we identified during the 2000
election indicates that improvements to Service voting assistance
programs are needed. The deficiencies that existed for the November
2002 election occurred because the Services had not:

       •   included all requirements in the DoD guidance for their voting
           assistance programs; and

       •   provided sufficient command emphasis and oversight to ensure
           consistent implementation of voting assistance programs.

Frequent deployments, increased operational requirements, and worldwide
operational commitments are compelling reasons for uniformed absentee
voters to understand the multi-step process of absentee voting. It is
imperative that those responsible for DoD absentee voting programs do
everything they can to ensure uniformed absentee voters are given the


                             6
           knowledge and tools necessary to exercise their constitutional right
           to vote.


Challenges Encountered by Uniformed Absentee Voters
    The absentee voting process can be inherently difficult compared with voting in
    the jurisdiction where one is registered. Uniformed absentee voters face a
    multi-step process in order to comply with State and local voting requirements.
    The challenges encountered by uniformed absentee voters include obtaining
    voting information in a timely manner, registering and obtaining an absentee
    ballot, and understanding State absentee voting procedures. As we did for our
    evaluation of the November 2000 election, we asked uniformed absentee voters
    about problems they encountered during the November 2002 election and any
    reasons they might have had for not voting.

    Problems Encountered During the November 2002 Election. About half of
    the questionnaire respondents reported that they had at least one problem during
    the November 2002 election. The problems mentioned most often, in descending
    order, were:

           •   insufficient information on the candidates or their election issues;

           •   no way to know whether the FPCA was received;

           •   voting procedures were complicated;

           •   absentee ballot never arrived; and

           •   difficulty in maintaining a current mailing address with local election
               officials.

    The issue of an absentee ballot never arriving was not among the five most
    frequent problems cited for the November 2000 election. The other four
    problems were among the five most frequent problems for the November 2000
    election.

    Reasons for Not Voting. We asked respondents who did not vote to provide
    their reasons for not voting. The reasons mentioned most often for not voting, in
    descending order, for the November 2002 election were:

           •   respondents were not familiar with the candidates or issues;

           •   respondents knew about the election, but were not interested in voting;

           •   respondents had no candidate preference;

           •   respondents did not know how to obtain an absentee ballot; and

           •   respondents did not know about the November 2002 election.



                                         7
    The issue of respondents not knowing about the election was not among the five
    most frequently cited reasons for not participating in the November 2000 election.
    The other four reasons were among the five most frequent reasons cited during
    the November 2000 election.

    Some of the reasons for not voting were related to State absentee voting
    procedures, and some included personal preference issues. Neither State absentee
    voting procedures nor personal decisions about voting are controllable by DoD.
    Although DoD can encourage voter participation, it cannot and should not attempt
    to force its Service members to vote.

    DoD faces many of the same challenges as the entire United States in its attempt
    to increase voting participation, particularly among the younger population of
    eligible voters. DoD challenges are magnified because of the worldwide
    dispersion of absentee voters among the Armed Forces and other activities
    supported by DoD. The Services could improve awareness and understanding of
    the absentee ballot process, which might encourage non-voters to participate in
    future elections. The questionnaire results revealed that approximately 53 percent
    of the respondents understood the process only to a small extent or not at all.


FVAP Office Guidance and Voting Assistance Resources
    The FVAP Office developed guidance and resources for effective and compliant
    implementation of the Act. The revision of DoD Directive 1000.4 and the DoD
    Voting Plan establish the requirements for effective DoD voting assistance
    programs. The FVAP Office provided valuable assistance, information, and tools
    to many uniformed absentee and overseas voters for the November 2002 election.
    Additionally, during 2002, the FVAP Office implemented the Act using a variety
    of resources and provided absentee voting information and materials to eligible
    voters worldwide.

    Background of the FVAP Office. To accomplish its goals, the FVAP FY 2002
    budget was $3.5 million, which included contracting, services, salaries, and a
    secure electronic registration and voting experiment. During Federal elections,
    the FVAP Office provides services and voting materials to:

           •   Armed Forces Recruitment Offices nationwide so that U.S. citizens
               can apply for voter registration or change their voter registration data;

           •   military voting assistance officers worldwide;

           •   embassy and consulate voting assistance officers; and

           •   State and local government officials.

    DoD Policies and Procedures. With the revision of DoD Directive 1000.4 and
    the updated DoD Voting Plan, the FVAP Office established a comprehensive
    policy and identified responsibilities necessary to effectively implement all
    requirements of the Act. Full implementation and consistent application of DoD


                                         8
Directive 1000.4 and the DoD Voting Plan will ensure the widest dissemination
of DoD policies and procedures to the personnel responsible for the successful
accomplishment of the DoD voting assistance program.

FVAP Office Resources. The FVAP Office provides voting assistance and
information to uniformed absentee voters through a variety of resources,
including the 2002-03 Voting Assistance Guide (the Guide), a monthly newsletter,
the FVAP Web site (http://www.fvap.ncr.gov), an information center, and a toll-
free telephone service. The Guide includes information on the use of the FPCAs
for voter registration or for requesting an absentee ballot and a sample of the
Federal Write-In Absentee Ballot (FWAB). The Guide also outlines State-by-
State registration and voting procedures. Voting Information News is a monthly
newsletter that contains information on elections. The newsletter is primarily sent
to voting assistance officers. The FVAP Web site includes the Guide and an
archive of the newsletters, as well as additional information on absentee voting
procedures. The Web site also provides Federal and State election information
and links to Federal agencies, State election organizations, and Military
Department voting assistance Web sites.

The FVAP Office’s voting information center is an automated telephone system
offering election information. It includes candidate information and connections
to the offices of elected officials. The toll-free telephone service is a referral
service that puts callers in touch with the FVAP Office. Additional FVAP Office
activities include the production and worldwide distribution of print and broadcast
voter education information and the training of voting assistance officers.

Uniformed Absentee Voter Satisfaction With FVAP Resources. The
questionnaires were designed to gauge the level of satisfaction with FVAP
resources. Similar to the responses on the questionnaire we used in 2001, many
respondents were not aware of the resources, but those who had used the
resources were satisfied with them. Table 1 shows the satisfaction rate of those
uniformed absentee voters who used the FVAP resources.

                  Table 1. Percent of Satisfaction with FVAP Resources

                                                    Percent of Questionnaire
                 Resource                            Respondents Satisfied

 2002-03 Voting Assistance Guide                              91

 FVAP Web site                                                87

 FVAP toll-free telephone service                             89



As we did during the 2001 evaluation, we asked UVAOs to rate their level of
satisfaction with five FVAP resources: the Guide, Voting Information News, the
FVAP Web site, the voting information center, and the toll-free telephone service.
Of the UVAOs with access to the resources, more than 90 percent found the
Guide, Voting Information News, and the Web site to be useful or somewhat


                                       9
     useful. About 68 percent of the UVAOs that had the voting information center
     available to them found it useful or somewhat useful. Sixty-three percent of the
     UVAOs that had the toll-free telephone service available to them found it useful
     or somewhat useful. The continued existence of high levels of satisfaction
     demonstrates that the FVAP resources are effective in assisting UVAOs and in
     educating uniformed absentee voters on the absentee voting process.

     The goals of the FVAP Office are to inform and educate uniformed absentee
     voters of their right to vote. The FVAP Office also fosters voting participation
     and protects the integrity of the electoral process. The overall voting participation
     rate for uniformed absentee voters who completed our questionnaires was
     46 percent for the November 2002 election. About 9 percent of the respondents
     who completed our questionnaire voted in person or had planned to vote in person
     in the United States. We believe that the FVAP Office resources are an integral
     part of participation by uniformed absentee voters.


Effectiveness of Service Voting Assistance Programs
     Although each Service had a plan for the implementation of its voting assistance
     program, the effectiveness of the Services’ voting assistance programs varied at
     the 10 locations we visited in 2002. In our opinion, the Service voting assistance
     programs were partially effective at six locations and ineffective at four locations.
     Many of the problems we identified for the November 2000 election continued to
     exist for the November 2002 election, indicating that improvements are still
     needed in each Service’s program. None of the Services fully complied with
     DoD requirements at the locations visited.

     In our opinion, one CONUS Army location we visited had a partially effective
     voting assistance program and two overseas Army locations had ineffective
     programs. One Navy location maintained a partially effective program, while
     another Navy installation and the Navy ship had ineffective programs. However,
     the commanding officer of the ship, who assumed command in June 2002,
     volunteered his ship to be included in our evaluation because he desired to
     implement an effective voting assistance program. Discussion groups with officer
     and enlisted personnel confirmed that the ship did not have an effective voting
     assistance program. During our visit, we provided copies of the Guide, FPCAs,
     and FWABs for use during 2003. We commend the commanding officer for his
     willingness to volunteer his ship for our evaluation and for his initiative to
     implement an effective voting assistance program.

     In our opinion, the three Air Force locations had partially effective voting
     assistance programs. At the one Marine Corps location we visited, the voting
     assistance program was partially effective.

     The Service voting assistance programs were not fully effective because the
     Services had not included all requirements of DoD guidance in their
     implementing guidance and had not provided sufficient command emphasis and
     program oversight.



                                          10
Service Guidance. Many of the problems that we found during our evaluation of
the November 2000 election continued to exist for the November 2002 election.
The delayed issuance of DoD Directive 1000.4 is one reason improvements are
still needed in each Service’s program. Because DoD Directive 1000.4 was not
revised until June 2002, it was not realistic to expect the Services to revise and
implement their guidance in time to affect voting assistance programs for the
2002 election. The Navy and Marine Corps revised their guidance in August and
May 2002, respectively. The Army and the Air Force had not revised their
guidance as of March 2003. Because of the timing of the revised DoD Directive,
we evaluated the formal Service guidance as well as their voting action plans to
determine whether the key requirements of DoD Directive 1000.4 were included.
Table 2 provides the results of the assessment for eight criteria from DoD
Directive 1000.4 that we consider critical to the success of voting assistance
programs.




                                    11
          Table 2. Comparison of DoD and Service Voting Assistance Program Guidance
                                          Service Voting Assistance Program Guidance
                                                That Includes DoD Requirements
       Requirement of DoD           Army             Navy           Air Force    Marine Corps
        Directive 1000.4         REG    VAP INST VAP INST VAP Order VAP

Establish the ratio or maximum          No    No         No    No    Yes   Yes   No      No
number of voters that can be
represented by UVAOs.

Ensure command support at all           No    No         Yes   No    No    Yes   Yes     No
levels for the FVAP.

UVAOs shall ensure that all small       No    No         No    No    No    No    No      No
and geographically separated
units are assisted.
Ensure the in-hand delivery of          No    No         Yes   No    No    No    No      No
FPCAs by January 15 of each
calendar year to all uniformed
absentee voters.
Ensure the in-hand delivery of          Yes   Yes        No    Yes   Yes   Yes   No      Yes
FPCAs by August 15 of even-
numbered years to uniformed
absentee voters who are serving
outside the territorial limits of the
United States.

Require the Inspectors General of       No    Yes        No    No    Yes   Yes   Yes     No
the Services to review their voting
assistance program annually at
every level of command to ensure
compliance with DoD regulations
and public law.

Continually evaluate command            No    Yes        Yes   No    Yes   No    Yes     No
voting programs.

Designate at least one well-            No    Yes        Yes   No    No    No    No      Yes
advertised fixed location on bases,
installations, and ships where
absentee voting material and
voting assistance is available to
all military personnel, family
members, and overseas DoD
civilian employees.

VAP        Voting Assistance Plan
REG        Regulation
INST       Instruction


         The Services can improve their programs by including all of the requirements in
         DoD Directive 1000.4 in their implementing guidance. It is essential that the
         Services’ guidance include, at a minimum, the eight criteria from DoD Directive
         1000.4 listed in Table 2. To ensure that requirements are made permanent, the
         changes should be incorporated in the Services’ formal guidance (regulations,
         instructions, or orders), and not just the voting action plans. The USD(P&R)

                                                    12
needs to oversee the revision of the Services’ voting assistance program guidance
to ensure all the requirements of DoD 1000.4 are included.

Service Emphasis and Oversight of the Voting Assistance Programs. The
Services can improve their voting assistance programs by providing more
emphasis at all levels of command and by improving Senior Service Voting
Representative and Installation Voting Assistance Officer oversight of voting
assistance programs. The need for improved emphasis and oversight is supported
by the respondents’ answers to questions on command emphasis, availability and
awareness of UVAOs, availability and awareness of voting resources, UVAO
span of control, and training and understanding.

        Command Emphasis. The questionnaires asked uniformed absentee
voters to rate the emphasis placed on voting at their installation or ship. Although
41 percent of the respondents rated command emphasis as sufficient or too much,
59 percent rated the emphasis as not enough or none (insufficient). The
perception that local command emphasis was insufficient was higher among
junior enlisted respondents. For those respondents who answered the command
emphasis question, 72 percent of Army, 67 percent of Navy, 32 percent of Air
Force, and 61 percent of Marine Corps personnel stated that command emphasis
was not enough or none (insufficient).

        In contrast, 82 percent of the UVAOs were satisfied or somewhat satisfied
with command emphasis. Although the design of the questionnaires does not
allow the establishment of cause and effect relationships, the voting rate was
higher for respondents who thought that command emphasis was sufficient than
for those who thought command emphasis was insufficient.

        Availability and Awareness of UVAOs. Uniformed absentee voters’
awareness of their UVAO and their perceptions of UVAO services varied.
Overall, 58 percent of the uniformed absentee voters who answered our
questionnaire stated that they did not know who their UVAO was. Awareness of
the UVAO was lower among junior enlisted (about 81 percent). Table 3 shows
that the Army and the Navy had the highest percentage of respondents who were
unaware of their UVAO. For the locations visited, only the Air Force achieved
greater than 50 percent of the respondents knowing who their UVAO was
(69 percent). Even the Air Force’s level of awareness shows considerable room
for improvement.

                            Table 3. Awareness of UVAO
                                                     Percent Unaware
                Service                          Questionnaire Respondents

                Army                                        71

                Navy                                        67

               Air Force                                    31

             Marine Corps                                   56



                                     13
        For the respondents who used their UVAO, about 91 percent were
satisfied with the availability of their UVAO, had knowledge of the absentee
ballot process, and were able to obtain balloting materials.

        As we determined in 2001, the high percentage of individuals who did not
know their UVAO indicates that those voting assistance programs need
improvement and that there was a low level of compliance with DoD and Service
regulations. Conversely, those respondents who knew their UVAO reported a
high level of satisfaction with their level of voting assistance and greater
understanding of the absentee ballot process.

        At each DoD installation and ship, the commanding officer has overall
responsibility for implementing the policies and procedures of the Service voting
assistance program. At nine of the locations we visited, an Installation Voting
Assistance Officer had been appointed to organize and direct the local voting
assistance program. To assist the Installation Voting Assistance Officer, UVAOs
should be appointed to organize and direct voting assistance support. The voting
assistance responsibility is a collateral duty for the Installation Voting Assistance
Officers and UVAOs.

       Table 4 shows the types of support UVAOs provided to uniformed
absentee voters, according to the UVAOs who answered our questionnaire.

              Table 4. Types of Specific Support Provided by UVAOs Surveyed

                                                                                    Percent of UVAOs
                                 Support                                            Providing Support

 Conducted workshops or briefings on voting for unit members                                  48

 Conducted workshops or briefings on voting for family
                                                                                             19*
 members

 Assisted individuals with the voting process                                                 80

 Displayed voting assistance materials                                                        80

 Involved base community organizations in the voting program                                  26
 *
 Some UVAOs may not have been responsible for providing materials or services to DoD dependents.


       Availability and Awareness of Voting Resources. The Deputy
Secretary of Defense memorandum “Federal Voting Assistance Program—2002-
2003,” March 26, 2002, requires that commanders and the heads of DoD
Components ensure that voting information and materials, such as the Guide,
FPCAs, and FWABs, are obtained and disseminated in a timely manner.

        Approximately 83 percent of the UVAO respondents were somewhat
satisfied or satisfied with the quantity of voting materials received and 71 percent
were somewhat satisfied or satisfied with the timeliness of voting materials


                                                 14
received. About 71 percent were somewhat satisfied or satisfied with the method
for requesting voting materials.

         As we did during the 2001 evaluation, we asked UVAOs to rate their level
of access to five FVAP Office resources: the Guide, Voting Information News,
the FVAP Web site, the voting information center, and the toll-free telephone
service. More than 75 percent of the UVAOs surveyed had access to the Guide,
Voting Information News, and the Web site. However, 40 percent of the UVAOs
said the voting information center was not available to them and 36 percent said
the toll-free telephone service was not available to them.

             In-Hand FPCA Delivery. DoD Directive 1000.4 requires the
heads of DoD Components to ensure in-hand delivery of FPCAs by:

       •   January 15 of each year to eligible voters and their voting-age
           dependents,

       •   August 15 of even-numbered years to eligible voters (including DoD
           civilian employees and voting-age dependents) who are serving
           outside the territorial limits of the United States, and

       •   September 15 of even-numbered years to eligible voters (including
           voting-age dependents), in the United States.

                 In-hand delivery entails placing an FPCA in the hands of all
eligible voters on or before the required dates. Senior Service Voting
Representatives and Installation Voting Assistance Officers did not always ensure
that UVAOs complied with the requirement for in-hand delivery of FPCAs. In
fact, some UVAOs were unaware that in-hand delivery was one of the
requirements of DoD Directive 1000.4 and Service voting action plans. The
Installation Voting Assistance Officers and UVAOs that were aware of the
in-hand delivery requirement often mentioned the financial concerns and the time
constraints involved in procuring and distributing FPCAs. We recognize the
difficulties of ensuring that every uniformed absentee voter receives an FPCA
in-hand multiple times and encourage Senior Service Voting Representatives to
work with personnel from the Office of the USD(P&R) on alternatives to the
multiple in-hand delivery requirements included in DoD Directive 1000.4.
Additionally, as the States implement the provisions of the Help America Vote Act
discussed later in this report, the number of FPCA in-hand delivery requirements
may be reduced.

              Awareness of Voting Resources. The questionnaires asked about
uniformed absentee voter awareness of FVAP resources. Similar to 2001, many
respondents were not aware of the resources. Table 5 shows the percentage of
uniformed absentee voters who were aware of FVAP resources.




                                    15
             Table 5. Awareness Level of FVAP Voting Assistance Resources
                                                        Percent Aware
                 Resource                         Questionnaire Respondents

 2002-03 Voting Assistance Guide                             43

 FVAP Web site                                               40

 FVAP toll-free telephone service                            20



                To its credit, the FVAP Office continued to offer useful tools, but
many uniformed absentee voters and UVAOs continued to be unaware of them.
For example, 67 percent of Army, 64 percent of Navy, 35 percent of Air Force,
and 60 percent of Marine Corps personnel who completed our questionnaire
stated that they were unaware of the Guide. Additionally, 68 percent of Army,
64 percent of Navy, 43 percent of Air Force, and 69 percent of Marine Corps
personnel who completed our questionnaire stated that they were unaware of the
FVAP Web site. An even greater percent of the respondents were unaware of the
toll-free telephone service. The Services need to do a better job of publicizing
available FVAP resources.

               Federal Write-In Absentee Ballot. Not all surveyed voters were
aware of the FWAB. The FWAB is a “back-up” ballot if an overseas registered
uniformed absentee voter does not receive his or her regular ballot from the State
or territory where they are registered to vote. At all of the locations visited,
discussion group participants said they would have participated in the 2002
elections had they known about the FWAB.

               Lack of voter awareness of the FWAB was prevalent among all of
the discussion groups we met with. About three-quarters of uniformed absentee
voters surveyed were not aware of the FWAB. Higher ranking military personnel
were generally more aware of the FWAB than lower ranking military personnel.
Nearly 5 percent of the questionnaire respondents who were registered to vote
said they did not vote because they did not receive an absentee ballot or because
they received it too late. Those respondents are eligible users of the FWAB and
represent a potential increase in the voting participation rate of our registered
respondents. Such a potential increase in voter participation, which is based on
awareness and use of a single form, indicates that increased emphasis and training
is warranted.

        UVAO Span of Control. In 2001, we reported that a critical factor in the
effectiveness of a Service voting assistance program is the number of people
served by the UVAO. We recommended that DoD specify the maximum number
of uniformed absentee voters that a UVAO should support. The former Assistant
Secretary of Defense (Force Management Policy) agreed that a maximum span of
control for UVAOs needed to be established but stated that the span of control
should be established by each Service. Revised DoD Directive 1000.4 requires



                                      16
the head of each DoD Component to establish the ratio or maximum number of
voters that can be represented by a voting assistance officer.

        Army and Marine Corps guidance states that a UVAO should be
appointed down to the company level, which can range from about 60 to 190
soldiers or marines. Navy guidance states that a UVAO should be designated and
assigned within each unit of 25 or more permanently assigned members but does
not establish a maximum span of control. Air Force policy states that there
should be one UVAO for every 20 voters, but the Air Force voting plan allows for
an increase of one UVAO for every 40 voters when the needs of the unit warrant
the increase.

        More than 50 percent of the UVAO respondents stated that they served
100 or more voters during the November 2002 election. About 33 percent of the
UVAO respondents served 250 or more voters. About 30 percent of the UVAO
respondents stated they were somewhat dissatisfied or dissatisfied with the
amount of time they could allot to UVAO duties. As previously stated, voting
assistance responsibilities are a collateral duty for all UVAOs. Table 6 shows the
span of control by UVAOs who answered our questionnaire.

      Table 6. UVAO Span of Control of Assigned Uniformed Absentee Voters

                              Fewer
                             Than 25      25 to 99    100 to 249   250 or More

 Army UVAOs                     0            4            6            10

 Navy UVAOs                     6           10            4             2

 Air Force UVAOs                6           22            7             8

 Marine Corps UVAOs             1            3            1            16


        The wide span of control may explain why large numbers of respondents
did not know their UVAO. We believe that the recommendation from our prior
report is still valid and that all Services should determine a maximum number of
uniformed absentee voters that a UVAO can reasonably expect to serve.
Additionally, USD(P&R) oversight of the Services’ guidance should include a
check to ensure that a maximum span of control is established by each Service.
Finally, Service oversight programs should ensure that the maximum span of
control is not exceeded.

         Training and Understanding of Voting Assistance Programs. DoD
recognizes the need for voting assistance training. DoD Directive 1000.4 requires
that UVAOs receive training during even-numbered years with Federal
(Presidential and Congressional) elections. Such UVAO training is to be
documented at the installation or base level. DoD Directive 1000.4 also requires
that all Service members be trained during years of Federal elections.




                                    17
                Training UVAOs. Although the FVAP Office conducted
105 worldwide workshops in 2002, 55 percent of the UVAO respondents had not
attended an FVAP seminar or workshop. Also, 71 percent had not attended
installation workshops, and 49 percent had not attended either FVAP or
installation workshops. In addition, about half of those trained said they had used
the voting assistance officer training program available on the FVAP Web site
and about half of those trained said they had attended informal briefings. Of the
UVAOs that completed our questionnaire, 32 percent had not attended an FVAP
or installation workshop or used the FVAP Web site. UVAO respondents stated
that being “self-taught” was by far the most common type of UVAO training
received. No one in the Services was tracking the training to ensure that all
UVAOs were trained at all locations.

                Training Absentee Voters. Despite FVAP and UVAO training,
69 percent of the uniformed absentee voters answered that they had not received
one briefing, training session, or instruction period devoted to the absentee voting
procedure for the November 2002 election.

                Uniformed Absentee Voter Understanding of Voting
Assistance Programs. Voter understanding is critical to successful use of
absentee ballots. Questionnaire results showed that 47 percent of the uniformed
absentee voters surveyed understood the absentee ballot process from a moderate
extent to completely. The level of understanding was substantially lower for
junior enlisted personnel (24 percent) than for officers (66 percent). Additionally,
the understanding level for respondents who had previously voted using an
absentee ballot was substantially higher (70 percent) than for those who had not
(26 percent).

                Providing accessible and trained UVAOs and providing training
for absentee voters will improve understanding of absentee voting procedures.
Special emphasis should be given to training junior enlisted personnel and
individuals who have not previously used an absentee ballot to vote. The
absentee ballot process was understood to a moderate extent or more by a higher
percentage of respondents who had received training than by those who had not.
The Services should consider using various training materials and military
settings, such as pre-recorded FVAP videotapes, pre-deployment briefings,
command indoctrination, and general military training sessions to maximize
training availability and effectiveness.

Just as we reported in our 2001 report, the Services did not provide the command
emphasis and oversight needed to ensure that Service voting assistance programs
were fully and consistently implemented. Although a general or flag officer held
the title of Senior Service Voting Representative in each of the Services, the
overall responsibility for managing the voting assistance program was delegated
to voting action officers at a lower level. The Service voting action officers
promoted voter participation through Web sites, voting action lines, or other
means. However, the Services have not developed controls or feedback systems
to ensure accountability, command support, and timely dissemination of voting
information and materials, or ensured that uniformed absentee voters were served
and trained by UVAOs.



                                     18
    Additionally, oversight by Installation Voting Assistance Officers needs
    improvement. We reviewed the voting assistance program initiatives at
    installations and inquired about controls or feedback to ensure that Service voting
    assistance program requirements were met. At the installations we visited that
    had assigned an Installation Voting Assistance Officer, we found the following
    examples of weaknesses similar to those reported in our 2001 report.

           •   Installations do not follow DoD or their own Service’s voting
               assistance program guidance requirements.

           •   Subordinate units and tenant organizations are not supported by either
               their host installation or their own chain of command.


Service Inspector General Assessments
    In addition to the IG DoD annual review of the effectiveness and compliance of
    voting assistance programs, 10 U.S.C. 1566 requires the Inspectors General of the
    Services to annually assess the effectiveness and compliance of their voting
    assistance programs. DoD Directive 1000.4 and the DoD Voting Plan also
    require each Service Inspector General to include command voting assistance
    programs as an item for specific review at every organizational level. The
    Directive also requires the Inspectors General of the Services to provide the
    IG DoD the results of their reviews by January 31 of each year. Those reviews
    are in Appendixes E, F, G, and H.

    We met with Service Inspector General personnel and asked them to consider
    answers to 11 questions when preparing their reports. The questions we prepared
    addressed such items as the effectiveness and implementation of the Service
    voting assistance programs, the adequacy of Service regulations, Service voting
    assistance program compliance with DoD and Service regulations, and the
    amount of coverage and emphasis that the Services placed on their voting
    assistance programs. The questions were intended to provide a level of
    consistency and focus on some of the elements we considered critical to
    implementing an effective voting assistance program. The 11 questions are in
    Appendix I.

    Army Inspector General. The Army Inspector General submitted the
    “Assessment of the FY 2002 Army Voting Assistance Program” to the IG DoD
    on February 25, 2003. Personnel from the Army Inspector General’s office
    performed an assessment at 17 major Army commands and installations and
    interviewed 53 Installation Voting Assistance Officers and UVAOs. The Army
    Inspector General concluded that units and installations were not complying with
    Army guidance. Further, the Army’s voting assistance program, at all levels,
    lacks command emphasis, detailed staff planning, and coordination. The program
    also lacks effective compliance with current DoD and Army policy guidelines and
    training. As a result, the execution of the Army’s program is inconsistent and
    ineffectual. The Army Inspector General recommended that installation
    Inspectors General conduct periodic reviews of installation voting assistance
    programs. The Army Inspector General also recommended that installation
    commanders consider appointing DoD civilians as voting assistance officers and

                                        19
     that commanders ensure the widest dissemination of information about their
     voting assistance program. The Army Inspector General report is in Appendix E.

     Naval Inspector General. The Deputy Naval Inspector General provided the
     IG DoD the “Report of Assessment of Navy Voting Assistance Program” on
     January 31, 2003, and a summary assessment on February 19, 2003. The Naval
     Inspector General determined that the Navy voting assistance program is in
     substantial compliance with the majority of DoD Directive 1000.4. Further, the
     overall program is performing well, however there is room for improvement. The
     report cites two areas needing improvement as verification of in-hand delivery of
     FPCAs and better maintenance of a database of UVAOs. The Deputy Naval
     Inspector General based the assessment on inspections at six locations that were
     conducted after the Navy issued its August 2002 voting assistance guidance.
     The Deputy Naval Inspector General also stated that a sampling of commands
     confirmed universal and aggressive efforts to advertise election and voting
     information, as well as guidance on how to obtain and submit voting materials.
     The Deputy Naval Inspector General report is in Appendix F.

     Air Force Inspector General. The Air Force Inspector General provided the
     IG DoD an undated report on the “Air Force Voting Assistance Program” on
     January 28, 2003. The Air Force Inspector General stated that overall Air Force
     compliance with DoD Directive 1000.4, the Act, and Air Force regulations is
     satisfactory. The Air Force Inspector General stated that the effectiveness of the
     voting assistance programs was evaluated at the squadron, group, wing, and
     command levels through scheduled unit compliance inspections. Since the
     release of DoD Directive 1000.4, approximately 84 units were inspected. The Air
     Force Inspector General report is in Appendix G.

     Marine Corps Inspector General. The Marines Corps Inspector General issued
     the “Annual Assessment of the Marine Corps Federal Voting Assistance Program
     for 2002” on January 24, 2003, and provided additional information supporting
     the assessment on February 27, 2003. The Marine Corps Inspector General
     concluded that the Marine Corps has an effective voting assistance program and,
     with the exception of reported discrepancies, is in compliance with DoD Directive
     1000.4 and the Act. The Marine Corps Inspector General report is in
     Appendix H.


FVAP Office Coordination With States’ Election Officials
     Each year, the FVAP Office contacts the chief election officials in the States, the
     District of Columbia, and the territories to propose changes to policy or legislation
     that would simplify absentee voting procedures. As of December 2002, the FVAP
     Office was working with the election officials on proposals related to timelines for
     mailing ballots, expanded use of the FPCA, and restrictions on how early overseas
     absentee voters can register to vote. The FVAP Office was also working on
     proposals related to special State write-in absentee ballots and electronic
     transmission of balloting materials. A detailed discussion of most of the proposals
     can be found at the FVAP Web site (http://www.fvap.gov).



                                          20
Based on questionnaire and discussion group results, the FVAP Office should
continue to work with the States on standardization and simplification of the
absentee ballot process, provide confirmation to absentee voters on receipt of
balloting materials, and explore opportunities for increased use of technology to
resolve difficulties related to absentee voting. Several of the issues raised by the
discussion group participants were directly related to proposals being addressed
by the FVAP Office. Because of the FVAP Office’s continued coordination with
the States, we are not making recommendations on those issues.

Standardization and Simplification of the Absentee Ballot Process.
Uniformed absentee voters mentioned State registration procedures and
requirements as a difficulty when registering to vote absentee versus registering
to vote locally. For example, uniformed absentee voters said that the absentee
voting process was complicated and they had difficulty maintaining their current
mailing address with State election officials. Although standard registration
procedures and ballots for absentee voters for all States is not practical in the near
future, significant improvements can be made in standardizing and simplifying
the process.

Feedback to Voters on Receipt of Balloting Materials. One of the more
consistent complaints heard during the discussion groups was that uniformed
absentee voters generally did not know whether their FPCAs or ballots were
received by the State of residency. The FPCA includes a tear-off, pre-addressed
card for election officials to return to the voter acknowledging receipt, but some
participants who used the FPCA did not receive the acknowledgement card. For
the November 2002 election, 7 percent of respondents stated that no response or a
delayed response to their FPCA submission was a problem.

Opportunities for Increased Use of Technological Solutions. Some of the
uniformed absentee voters in our discussion groups suggested the use of the
Internet for voter registration and voting. Although widespread Internet voting
may not become a reality in the near future, the FVAP Office is continuing to
explore opportunities for technological solutions to absentee voting problems.

Help America Vote Act. The Help America Vote Act, Public Law 107-252, was
signed by the President on October 29, 2002. The Help America Vote Act
amended 10 U.S.C. 1566 and provides assistance to individual States to improve
their election systems, including funds for States to replace outdated voting
equipment. Public Law 107-252 also provides changes to the Uniformed and
Overseas Citizens Absentee Voting Act. Some of the provisions of the Help
America Vote Act that apply to absent Uniformed Services and overseas voters are
as follows.

       •   A newly created Election Assistance Commission, in consultation with
           the Secretary of Defense, will study the best practices for facilitating
           voting by uniformed absentee voters.

       •   Each State is required to maintain a central office for information
           regarding registration and absentee voting procedures for uniformed
           absentee voters.



                                      21
           •   FPCAs are to be valid through two regularly scheduled general
               elections for Federal office and the States are required to provide
               absentee ballots to the voter for each subsequent election.

           •   When a uniformed absentee voter submits an FPCA for registration,
               and the registration is rejected by the State, reasons for the rejection
               are to be provided to the voter by the State.

           •   The Services are required to provide resources and time to allow
               UVAOs to perform their duties: “last day to mail” notifications to
               uniformed absentee voters; access to information regarding voter
               registration, absentee ballot requirements, and deadlines; and
               assistance to uniformed absentee voters.

    Although the Help America Vote Act was not passed in time to affect the
    November 2002 election, we believe its provisions will enhance and facilitate the
    registration and voting process for uniformed absentee voters. We will evaluate
    DoD responsiveness to the Help America Vote Act in the future.


Conclusion
    In our 2001 report, we made numerous recommendations to improve the oversight
    and effectiveness of the Services’ voting assistance programs. We also
    recommended that DoD oversee Service guidance to ensure consistency with
    DoD Directive 1000.4. Additionally, we made recommendations to the Services
    that they establish controls and procedures to ensure voting assistance program
    continuity, expedient and widespread dissemination of voting materials, and
    training of uniformed absentee voters. The results of this evaluation show that
    improvements are still needed.

    DoD should continue its efforts to improve oversight of the voting assistance
    program. Additionally, consistent voting assistance program implementation of
    DoD requirements by the Services and command emphasis of the program at all
    levels is crucial. Voting materials and training on absentee voting procedures
    should be provided as required, with special emphasis for junior enlisted
    personnel and individuals who have not previously used an absentee ballot to
    vote. Additionally, properly trained and readily available UVAOs are essential to
    the success of the FVAP. Because of worldwide operational commitments,
    effective Service voting assistance programs are important in providing
    uniformed absentee voters with the tools needed to understand the multi-step
    process of absentee voting. Without continued emphasis and oversight of this
    important program, uniformed absentee voters will continue to have difficulty
    exercising their constitutional right to vote.




                                         22
Recommendations, Management Comments, and Evaluation
  Response
    1. We recommend that the Under Secretary of Defense for Personnel and
    Readiness provide oversight to ensure that Service voting assistance program
    regulations are consistent with the requirements established by DoD
    Directive 1000.4.

    Under Secretary of Defense for Personnel and Readiness Comments. The
    Principal Deputy Under Secretary of Defense for Personnel and Readiness
    concurred with the recommendation and stated that his office and the Director,
    Federal Voting Assistance Program will continue to oversee the Services’ voting
    assistance program guidance to ensure consistency with the revised DoD
    Directive.

    Evaluation Response. The comments from the Principal Deputy Under
    Secretary are fully responsive. We believe that oversight of the Services’ voting
    assistance programs will provide a higher degree of continuity with DoD
    requirements and will enable the Services to increase the effectiveness and
    compliance of their voting assistance programs.

    2. We recommend that the Secretaries of the Military Departments and the
    Commandant of the Marine Corps update voting assistance program
    regulations to be consistent with DoD Directive 1000.4. At a minimum, the
    Service regulation revisions should include the following eight elements (as
    detailed in Table 2):

           a. The maximum number of uniformed absentee voters that can be
    represented by a Unit Voting Assistance Officer.

            b. Command support for the Federal Voting Assistance Program at
    all levels of command.

          c. Voting assistance support to all small and geographically
    separated units.
          d. The in-hand delivery of Federal Post Card Applications by
    January 15th of each year.

           e. The in-hand delivery of Federal Post Card Applications by
    August 15th of even-numbered years to uniformed absentee voters serving
    outside the territorial limits of the United States.

          f. Annual Service Inspector General reviews of voting assistance
    programs at every level of command.

           g. Continual evaluation of command voting assistance programs.

          h. Designation of one fixed and well-advertised location where voting
    material and voting assistance is available to all uniformed absentee voters.


                                        23
Under Secretary of Defense for Personnel and Readiness Comments. The
Principal Deputy Under Secretary of Defense for Personnel and Readiness
concurred and stated that no later than May 1, 2003, the Under Secretary would
issue a memorandum requiring that the Service voting assistance program
regulations, instructions, or orders be consistent with the requirements of DoD
Directive 1000.4 and with the DoD Voting Plan. The Principal Deputy Under
Secretary also stated that he would provide guidance to the Services on the
minimum and maximum span of control for voting assistance officers. The
Principal Deputy Under Secretary stated that the FVAP Office will recommend
assignment of voting assistance officers to all units with 25 or more members and
an additional voting assistance officer for each additional 50 members above the
25-member base.

Army Comments. The Army did not comment on the report. We request that
the Army provide comments on the final report.

Navy Comments. The Assistant Commander, Navy Personnel Command
generally concurred with Recommendations 2.b. through 2.h., but did not provide
details on specific corrective actions to be taken or dates of completion. The
Assistant Commander nonconcurred with Recommendation 2.a. to establish a
ratio or maximum number of voters that can be represented by a UVAO. The
Assistant Commander stated that the creation of an arbitrary ceiling discounts the
“captive audience” effect of a deployable unit. The Assistant Commander, who is
also the Navy’s Senior Voting Representative, stated that he believed that the
effective workforce required to properly support the Navy voting assistance
program could best be determined at the command level.

Air Force Comments. Although the Director, Learning and Force Development,
Deputy Chief of Staff for Personnel did not provide details on specific corrective
actions, he stated that the Air Force is in the process of revising Air Force
Instruction 36-3107 to include all vital information contained in DoD Directive
1000.4. The Director stated the Instruction would be published before the start of
the next election season.

Marine Corps Comments. The Inspector General of the Marine Corps
concurred with Recommendations 2.a. through 2.c. and 2.f. through 2.h., but did
not provide details on specific corrective actions to be taken or dates of
completion. The Inspector General nonconcurred with Recommendations 2.d.
and 2.e., which reiterate the DoD requirement for in-hand delivery of FPCAs to
all uniformed absentee voters. The Inspector General stated that there is no
indication that in-hand delivery of the FPCA provides a more effective voting
assistance program and that the excess time, effort, staffing, and expense to meet
the requirement is considerable.

Evaluation Response. The issuance of a memorandum by the Under Secretary
requiring the Services to revise the guidance will help ensure the recommendation
is fully implemented.

The Navy comments are partially responsive to Recommendations 2.b. through
2.h. The Navy comments are not responsive to Recommendation 2.a. DoD
Directive 1000.4 requires that the Services establish a ratio or maximum number


                                    24
of voters that can be served by a UVAO. We recognize that a “one size fits all”
concept will not work in determining how many voters a UVAO should serve
because of differences in Service and unit organizational structures. However, we
continue to believe that a maximum span of control for UVAOs should be
determined by the Services. The response from the Principal Deputy Under
Secretary of Defense for Personnel and Readiness further supports our belief.
Also, 67 percent of the Navy respondents who completed our questionnaire for
the November 2002 election did not know their UVAO. Improving the span of
control for Navy UVAOs should provide increased coverage and awareness
necessary for Navy uniformed absentee voters to participate in Federal and State
elections. We request that the Navy reconsider its position on
Recommendation 2.a. See Table 7 for specific requirements for Navy comments
on the final report.

The comments from the Air Force are partially responsive. The Air Force did not
provide specific comments on Recommendations 2.a. through 2.h. However, we
interpret the Air Force statement that the revised Instruction will include all vital
information contained in DoD Directive 1000.4 as a concurrence. The Air Force
stated that the revised Instruction would be published before the next election
season. We request that the Air Force provide a specific date for publication of
the revised Instruction. It is unclear whether the Air Force is referring to the 2003
election season or the 2004 Federal election season. We believe that waiting until
2004 to publish the Instruction would not be timely. See Table 7 for specific
requirements for Air Force comments on the final report.

The Marine Corps comments are partially responsive to Recommendations 2.a.
through 2.c. and 2.f. through 2.h. The Marine Corps comments are not responsive
to Recommendations 2.d. and 2.e. In-hand delivery of FPCAs is required by DoD
Directive 1000.4. As discussed in the report, we recognize that the in-hand
delivery requirement raised concerns and we also recognize the difficulties of
ensuring that every uniformed absentee voter received an FPCA in-hand multiple
times. As stated in the report, State implementation of the Help America Vote Act
may reduce the number of required in-hand FPCA deliveries. The Senior Service
Voting Representatives could work with the FVAP Office on this issue. We
request that the Marine Corps reconsider its position on Recommendations 2.d.
and 2.e. See Table 7 for specific requirements for Marine Corps comments on the
final report.

3. We recommend that the Secretaries of the Military Departments and the
Commandant of the Marine Corps ensure that the importance of Service
voting assistance programs is emphasized at all levels of command.
Command emphasis should:

       a. Require the appointment of Unit Voting Assistance Officers for all
units consistent with DoD and Service guidance.

      b. Stress the importance of Unit Voting Assistance Officer
responsibilities and provide adequate time for training and for carrying out
Unit Voting Assistance Officer responsibilities.




                                     25
      c. Ensure that uniformed absentee voters are informed of the
importance of their vote.

       d. Emphasize the importance of voting assistance workshops, Service
and Federal Voting Assistance Program resources, and voting assistance
training opportunities at DoD installations and ships.

Under Secretary of Defense for Personnel and Readiness Comments. The
Principal Deputy Under Secretary of Defense for Personnel and Readiness
concurred, stating that no later than May 1, 2003, the Under Secretary would
issue a memorandum to the Services directing Service-wide command emphasis
of the voting assistance program.

Service Comments. The Assistant Commander, Navy Personnel Command
concurred, but did not provide details on specific corrective actions to be taken or
dates of completion. The Army, the Air Force, and the Marine Corps did not
comment on the recommendation.

Evaluation Response. We consider the Navy comments to be partially
responsive to the recommendation. See Table 7 for specific requirements for each
Service’s comments on the final report.

4. We recommend that the Secretaries of the Military Departments and the
Commandant of the Marine Corps require their Senior Service Voting
Representatives and Senior Installation Voting Assistance Officers to
improve oversight of their voting assistance programs. At a minimum,
oversight should ensure that:

       a. Procedures are established to ensure program coordination and
continuity at each installation or ship.

      b. Uniformed absentee voters receive timely in-hand delivery of
Federal Post Card Applications.

       c. Unit Voting Assistance Officers and uniformed absentee voters are
trained during even-numbered years with Federal elections. Special
emphasis should be given to providing training to junior enlisted personnel
and those who have not previously used an absentee ballot to vote. The
Senior Service Voting Representatives and Senior Installation Voting
Assistance Officers should develop feedback systems to document the
training.

       d. The number of uniformed absentee voters that Unit Voting
Assistance Officers serve is consistent with Service guidance.

       e. Rosters of Installation Voting Assistance Officers and Unit Voting
Assistance Officers, and their designated alternates, are maintained and
provide coverage for all units, as required in DoD Directive 1000.4, to include
geographically separated units and tenants.




                                     26
    Under Secretary of Defense for Personnel and Readiness Comments. The
    Principal Deputy Under Secretary of Defense for Personnel and Readiness
    concurred, stating that the oversight issues in the recommendation will continue
    to be emphasized by the FVAP Office in DoD Directive 1000.4, the DoD Voting
    Plan, FVAP Office publications, and FVAP training. He also stated that
    adherence to DoD and FVAP requirements will continue to be an inspection item
    for the Service Inspectors General and the IG DoD.

    Service Comments. The Assistant Commander, Navy Personnel Command
    concurred, but did not provide details on specific corrective actions to be taken or
    dates of completion. The Army, the Air Force, and the Marine Corps did not
    comment on the recommendation.

    Evaluation Response. We consider the Navy comments to be partially
    responsive to the recommendation. See Table 7 for specific requirements for each
    Service’s comments on the final report.

    See the Management Comments section of the report for the complete text of
    management comments.


Management Comments Required
    The Services are requested to comment on the items indicated with an X in
    Table 7.

                                Table 7. Management Comments Required

                                                          Concur/    Proposed   Completion
      Recommendation Number                 Service      Nonconcur    Action      Date

     2.a. through 2.h.                       Army           X           X           X
     3.a. through 3.d.                       Army           X           X           X
     4.a. through 4.e.                       Army           X           X           X

     2.a.                                    Navy           X           X           X
     2.b. through 2.h                        Navy                       X           X
     3.a. through 3.d.                       Navy                       X           X
     4.a. through 4.e.                       Navy                       X           X

     2.a. through 2.h.                     Air Force                    X           X
     3.a. through 3.d.                     Air Force        X           X           X
     4.a. through 4.e.                     Air Force        X           X           X

     2.a., 2.b., 2.c., 2.f., 2.g., 2.h.   Marine Corps                  X           X
     2.d., 2.e                            Marine Corps      X           X           X
     3.a. through 3.d.                    Marine Corps      X           X           X
     4.a. through 4.e.                    Marine Corps      X           X           X




                                                    27
Air Force Comments on Table 2 of the Report and Evaluation
  Response
           Air Force Comments. The Director, Learning and Force Development, Deputy
           Chief of Staff for Personnel did not concur with the information in Table 2 that
           showed the Air Force voting plan as not requiring continual evaluation of its
           voter assistance program. The Director stated that the Air Force voting plan,
           paragraph 2.d.4,∗ requests the Air Force Inspector General to include the voting
           assistance program as an item for specific review at every level of command.
           Other than this comment, the Director stated the report accurately reflects the
           status for the Air Force voting assistance program.

           Evaluation Response. We agree that the Air Force voting plan requests the Air
           Force Inspector General to include the voting assistance program as an item for
           specific review at every level of command. Table 2 reflects that requirement.
           However, DoD Directive 1000.4 requires the Inspector General reviews
           (paragraph 5.2.1.8) as well as continual evaluation of command programs
           (paragraph 5.2.1.9). We confirmed with the FVAP Office that the requirements
           are separate. In addition, we note that Air Force Instruction 36-3107 also appears
           to recognize two distinct review requirements. Paragraph 4.1 of the Air Force
           Instruction requests the Inspector General to include the voting assistance
           program as an item for specific review at every level of command. Paragraph 4.2
           requires the Director of Personnel at each major command to monitor, evaluate,
           and ensure the success of the FVAP for the major command. Although the Air
           Force Instruction includes both requirements, in accordance with the DoD
           Directive, it would be beneficial for the Air Force voting plan to be consistent
           with the DoD Directive and the Air Force Instruction.




∗
    The Air Force comments refer to paragraph 2.d.4 of the Air Force voting action plan. The requirement
    for Air Force Inspector General reviews is in paragraph 3.d.4.


                                                     28
Appendix A. Scope and Methodology
   We reviewed laws, policies, and guidance dated from August 1981 through
   October 2002 relating to the absentee ballot process and the Service voting
   assistance programs. We assessed the FVAP compliance with requirements of
   the Act, which are general in nature. We also reviewed DoD and Service
   implementing guidance for their voting assistance programs. We assessed the
   effectiveness and compliance of each Service’s voting assistance program based
   on perceptions of uniformed absentee voters and the requirements of DoD
   Directive 1000.4.

   We obtained information relating to the voting assistance program for the
   November 2002 election from the FVAP Office. We interviewed personnel
   involved with voting assistance programs at the FVAP Office and the Services.
   We obtained policies and procedures for processing and handling absentee ballots
   and for instructing uniformed absentee voters on voting requirements and
   deadlines.

   We used overseas demographic information from the Defense Manpower Data
   Center to select overseas Navy and Air Force installations to be visited. We
   selected six installations within Europe for the Army, the Navy, and the Air Force
   (a large and a small installation for each). We also selected one installation
   within CONUS for the Army, the Air Force, and the Marine Corps. For the Navy,
   we also selected one ship homeported in Norfolk, Virginia. We coordinated the
   selection of the overseas Army sites with U.S. Army Europe. One of the Army
   locations selected had been visited during our 2001 evaluation. Visits were not
   unannounced because of theater clearance requirements and security concerns.

   At the selected installations and ship, we used a two-phased approach to assess
   the absentee ballot process. The first phase included administering
   942 questionnaires to uniformed absentee voters. A copy of the questionnaire is
   in Appendix B. Nothing in the questionnaire or in the processing of the
   questionnaires allowed us to identify a specific respondent.
   Information gathered from the questionnaires included respondents’ perceptions
   of command emphasis of the voting assistance program, understanding of
   absentee voting procedures, and problems encountered during the November
   2002 election. Answers to many of the questions were based on the respondents’
   perceptions; the accuracy of those perceptions cannot be validated. Questionnaire
   respondents also participated in discussion groups, where they were asked to
   describe their experiences with the absentee ballot process.

   The second phase of our assessment involved contacting various levels of voting
   assistance officers regarding the implementation of the voting assistance program.
   We interviewed each of the Senior Service Voting Representatives or their action
   officers. We also interviewed Installation Voting Assistance Officers at each
   location visited and discussed controls over local absentee voting procedures, the
   level of assistance provided by UVAOs, and the degree to which the voting
   assistance program had been implemented. We developed a questionnaire
   consisting of 10 questions for UVAOs (see Appendix C). We administered


                                       29
110 questionnaires to UVAOs. The responses provided information related to
UVAO training, awareness of and satisfaction with FVAP resources, and
problems encountered by voters supported by UVAOs.

For the 10 locations (including one ship) visited, we determined the effectiveness
of the voting assistance programs. Our determination was based on a subjective
evaluation of how well each installation implemented the voting assistance
program to ensure that uniformed absentee voters had an opportunity to exercise
their right to vote. We reviewed available documentation and interviewed
Installation Voting Assistance Officers and UVAOs. We also based our
determination on the results of group discussions with absentee voters at
each location.

The evaluation focused on DoD and Service voting assistance programs. The
IG DoD does not have authority over the States involved in the process, and this
limited the scope of our research on absentee voting issues that were brought to
our attention by uniformed absentee voters.

We performed this evaluation from September 2002 through March 2003
according to standards implemented by the IG DoD. Section 1566, title 10,
United States Code, requires Service Inspectors General reports to be reflected in
the IG DoD report to Congress on the effectiveness and compliance of voting
assistance programs. The Service Inspectors General reports are in Appendixes
E, F, G, and H. The Service Inspectors General reports were not validated by
the IG DoD.

We selected a non-statistical, judgmental sample of six overseas installations in
Germany, Italy, and the United Kingdom; three CONUS installations; and one
Navy ship. Visits to the nine installations and one ship were conducted from
October 23, 2002, through January 9, 2003. DoD civilians assigned to the
10 locations were not included in our evaluation. Additionally, we did not
include U.S. citizens who reside near the six overseas locations that we selected
for evaluation in our selection criteria.

In a statistical sense, the representativeness of a sample is determined by whether
the method of its selection was random or involved human judgment. Our
samples were judgmental. The results of the questionnaires discussed in this
report are representative only of the questionnaire respondents and should not be
generalized to the entire DoD or any Service. In addition, the numerical results of
our questionnaires from our 2001 evaluation should not be compared with the
results of the questionnaires from this evaluation.

We divided the installations in our sampling universe by Service and then into
two strata to ensure coverage of large and small installations. For the Army, the
Navy, and the Air Force, we selected one large and one small overseas
installation using population data for active duty personnel provided to us by the
Defense Manpower Data Center. For the Marine Corps, we selected one large
CONUS installation. We also included in our selection an Army CONUS
installation, a Navy ship, and an Air Force CONUS installation.




                                    30
Questionnaires were administered to judgmentally selected units at each location.
Prior to our visits, we requested information from the installation and ship points
of contact on total populations and unit populations. For the locations visited, we
selected a judgmental sample of units that represented at least 20 percent of the
total population (some locations only had one assigned unit). We then requested
that 75 active duty personnel (25 junior enlisted, paygrades E-1 through E-4; 25
senior enlisted, paygrades E-5 through E-9; and 25 officers) from our sample
units be available to respond to our questionnaire and participate in our discussion
groups. At all locations, we requested that as many active duty dependents and
UVAOs as possible also respond to our questionnaires and participate in our
discussion groups. Participation did not always include the full number of
requested personnel. Because of the low number of dependent participants, the
dependent responses are included with the Service member responses and are
considered part of the uniformed absentee voter population throughout this report.

Analytical Approach. We input each individual questionnaire into a computer
data file. The records in the data file do not identify the participating personnel.
We then transmitted the data file to members of the Quantitative Methods
Division, IG DoD, for analysis.

Our overall analytical approach to the responses was based on using the
information collected with minimum modification. We applied edits to ensure the
internal consistency of each individual’s responses. We performed the edits and
the analyses of the responses using the Statistical Analysis System, version 8.

Specifically, we employed the following edits to produce the results contained in
this report. Both of the edits apply to the responses of uniformed absentee voters.

       •   If an individual indicated that he or she was unaware of a particular
           FVAP voting resource, then any satisfaction rating given for that
           resource was deleted.

       •   If an individual indicated that he or she did not know who the UVAO
           was, then any response given regarding the performance of the UVAO
           was deleted.
Use of Computer-Processed Data. We relied on computer-processed data from
the Defense Manpower Data Center to establish relative sizes of installation
populations. We also relied on computer-processed data for unit populations at
installations visited. Because we are not projecting the questionnaire results to
the universe, the accuracy of the databases is not relevant to the evaluation results
and we did not evaluate their accuracy.

Use of Technical Assistance. Personnel from the Quantitative Methods Division
of the IG DoD assisted with questionnaire development and data analysis.




                                     31
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    controls related to the adequacy of policies and the oversight of the
    implementation of the Service voting assistance programs to ensure that
    uniformed absentee voters were provided the maximum opportunity to vote. We
    also assessed the Services’ self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified management control
    weaknesses in the Service voting assistance programs as defined by DoD
    Instruction 5010.40 regarding the compliance with laws and regulations
    prescribed for Service voting assistance programs. The Services did not have
    adequate policy and oversight to ensure that all uniformed absentee voters were
    informed and trained on all aspects of absentee voting or that they were given
    maximum opportunity to exercise their right to vote. Recommendations 1.
    through 4., if implemented, will improve the policy, oversight, and
    implementation of the voting assistance programs. Because of the limited number
    of locations visited, we are not making a judgment on the materiality of the
    weaknesses identified. A copy of the report will be provided to the senior official
    responsible for management controls in the Office of the USD(P&R), the Army,
    the Navy, the Air Force, and the Marine Corps.

    Adequacy of Management Self-Evaluation. The Army, the Air Force, and the
    Marine Corps did not identify voting assistance programs as an assessable unit.
    The Navy included its voting assistance program as an assessable unit for review
    and relied on required scheduled inspections to assess the program. The Navy
    inspections did not identify the weaknesses identified by this evaluation. None of
    the Services identified or reported management control weaknesses in their voting
    assistance programs on their annual statements of assurance.


Prior Coverage
    During the last 5 years, the General Accounting Office (GAO), the IG DoD, and
    the Department of State have issued four reports discussing the FVAP and
    overseas absentee voting. Unrestricted GAO reports can be accessed over the
    Internet at http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.




                                        32
GAO
      GAO Report No. 01-1026, “Voting Assistance to Military and Overseas Citizens
      Should Be Improved,” September 28, 2001

      GAO Report No. 01-470, “Elections: The Scope of Congressional Authority in
      Election Administration,” March 2001

IG DoD
      IG DoD Report No. D-2001-145, “Overseas Absentee Ballot Handling in DoD,”
      June 22, 2001

Department of State
      United States Department of State Report No. 01-FP-M-045, “Review of
      Implementation of the Federal Voter Assistance Program,” August 2001




                                       33
Appendix B. Uniformed Absentee Voter
            Questionnaire




                     34
35
36
Appendix C. UVAO Absentee Ballot
            Questionnaire




                     37
38
Appendix D. Commands, Installations, and Ship
            Visited

Office of the Secretary of Defense
Federal Voting Assistance Program Office, Washington, D.C.

Department of the Army
U.S. Total Army Personnel Command, Alexandria, Virginia
   The Adjutant General Directorate, Alexandria, Virginia
U.S. Army, Europe, and Seventh Army, Heidelberg, Germany
1st Personnel Command, Schwetzingen, Germany
26th Area Support Group, Heidelberg, Germany
   293rd Base Support Battalion, Mannheim, Germany*
100th Area Support Group, Grafenwoehr, Germany
   409th Base Support Battalion, Grafenwoehr, Germany*
Fort Carson, Colorado*

Department of the Navy
Headquarters, U.S. Marine Corps, Quantico, Virginia
Headquarters, U.S. Naval Activities, United Kingdom*
U.S. Naval Support Activity, Naples, Italy*
Navy Personnel Command, Millington, Tennessee
Marine Corps Base Camp Lejeune, North Carolina*
USS Leyte Gulf (DDG 55)*

Department of the Air Force
Deputy Chief of Staff for Personnel, Washington, D.C.
Air Force Personnel Center, Randolph Air Force Base, Texas
Royal Air Force Croughton, United Kingdom*
Aviano Air Base, Italy*
Langley Air Force Base, Virginia*


*Locations where uniformed absentee voter and UVAO questionnaires were administered.




                                                39
Appendix E. Department of the Army Inspector
            General Report




                      40
     Not included




41
42
43
Appendix F. Department of the Navy Inspector
            General Report




                      44
45
46
47
48
49
Appendix G. Department of the Air Force
            Inspector General Report




                      50
51
52
53
               Appendix H. Marine Corps Inspector General
                           Report




Enclosure 1
not included




                                     54
55
56
57
58
59
Appendix I. Eleven Questions Provided to the
            Inspectors General of the Services
    We provided representatives from the Inspectors General of the Services
    11 questions for their consideration when preparing their reports. The
    11 questions addressed the effectiveness and implementation of the Service
    voting assistance programs. The 11 questions were intended to provide a level of
    consistency for some of the elements we considered critical to implementing
    effective voting assistance programs. The questions were not intended to serve as
    the sole basis of the Service Inspectors General reports. The 11 questions were as
    follows.
    1. What is your assessment of your Service’s overall compliance with:
            a. DoD Directive 1000.4, “Federal Voting Assistance Program,”
            b. implementing Service regulations, and
            c. the Uniformed and Overseas Citizens Absentee Voting Act.

    2. The revised DoD Directive 1000.4 requires Service Inspectors General to review their voting
    assistance programs annually at every level of command to ensure compliance with DoD
    regulations and public law. Explain the scope of your inspection at each level of command.
    Discuss how much of your work was based on the September 4, 1996, DoD Directive 1000.4 and
    Service implementing regulations versus the revised DoD Directive and subsequent revisions to
    the Service regulations.

    3. Has the Service revised its written policy to be consistent with the new DoD
    Directive 1000.4?7

    4. Discuss the procedures used to ensure that all UVAOs received adequate training on the
    Federal Voting Assistance Program.

    5. What procedures did your Service use to ensure that each eligible voter (active duty personnel,
    DoD civilians located overseas, and their dependents) received, in-hand, the Federal Post Card
    Application?

    6. Did your Service determine a maximum number of voters that can be represented by a UVAO?
    If so, what is the ratio?

    7. How did your Service ensure adequate command support, at all levels, for the Federal Voting
    Assistance Program?

    8. Discuss the duties and responsibilities of the Senior Service Voting Representative.

    9. Discuss the oversight performed and the after-action reports prepared by the Senior Service
    Voting Representative.

    10. Is there an overall Service plan to ensure that all eligible voters receive training on absentee
    registration and voting procedures during years of Federal elections?

    11. How did your Service ensure that adequate levels of voting materials (Voting Assistance
    Guides, FPCAs, and FWABs) were delivered to UVAOs?




                                                 60
Appendix J. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Director of Administration and Management
   Director, Washington Headquarters Services
   Director, Federal Voting Assistance Program

Department of the Army
Inspector General, Department of the Army
Auditor General, Department of the Army
The Adjutant General, Department of the Army

Department of the Navy
Commandant of the Marine Corps
  Deputy Counsel for the Commandant
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
  Deputy Naval Inspector General for Marine Corps Matters
Marine Corps Deputy Commandant for Manpower and Reserve Affairs
Commander, Navy Personnel Command
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Air Force Inspector General
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          61
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Subcommittee on Military Personnel, Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Subcommittee on Military Personnel, Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        62
Under Secretary of Defense for Personnel and
Readiness Comments




                      63
Department of the Navy Comments




                    64
65
Department of the Air Force Comments




                     66
Marine Corps Comments




                   67
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Michael A. Joseph
Timothy J. Tonkovic
Robert T. Briggs
Robert J. Hanlon
Anna P. Martin
Danny O. Hatten
Lynnell E. Hines
J. Steven Epps
William F. Lanyi
Carmen J. Malone
Frank C. Sonsini
H. David Barton
Dharam V. Jain
Kndasamy Selvavel
Susann L. Cobb
Elizabeth L.N. Shifflett
